OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MEXICO’S
GLOBAL CLIMATE CHANGE
PROGRAM
AUDIT REPORT NO. 1-523-13-006-P
JUNE 20, 2013




SAN SALVADOR, EL SALVADOR 

Office of Inspector General


June 20, 2013

MEMORANDUM

TO:      	        USAID/Mexico Mission Director, Tom Delaney

FROM: 	           Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	         Audit of USAID/Mexico’s Global Climate Change Program
                  (Report No. 1-523-13-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft and have included them in their entirety in
Appendix II.

The report contains 13 recommendations to help USAID/Mexico strengthen its Global Climate
Change Program. Based on actions the mission has taken or plans to take, final action was
taken for seven recommendations and management decisions have been reached on six.
Please provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action for all the
recommendations.

I want to express my appreciation for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena Antiguo
Cuscatlan, Depto. La Libertad San
Salvador, El Salvador
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Environmental Programs Were Late ....................................................................................... 4 


     Indicator and Results Reporting Were Not Always Accurate or Complete ............................. 6 


     Programs Did Not Comply With Human Trafficking Requirements......................................... 9 


     Programs Did Not Track Earmarked Funds or Implement All Financial Controls ................. 10 


     Program Security Plans Were Not Complete ........................................................................ 11 


Evaluation of Management Comments................................................................................... 13 


Appendix I—Scope and Methodology .................................................................................... 15 


Appendix II—Management Comments ................................................................................... 17 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
DQA             data quality assessment
FAR             Federal Acquisition Regulation
FY              fiscal year
GCC             Global Climate Change Program
GHG             greenhouse gases
MLED            Mexico Low Emissions Development
M-REDD          Mexico’s Reduced Emissions from Deforestation and Degradation
OMB             Office of Management and Budget
PMP             performance management plan
PPR             performance plan and report
REDD+           Reducing Emissions from Deforestation and Degradation
TraiNet         Training Results and Information Network
SUMMARY OF RESULTS 

In 2009 the United States and Mexico entered into a bilateral framework on clean energy and
climate change. Through this agreement, the two countries outlined their common commitment
to a low carbon future and clean energy economies.1 To support this effort, USAID/Mexico’s
Global Climate Change (GCC) Program aims to help Mexico reduce emissions from
deforestation and forest degradation, implement a low emissions development strategy, and
establish a strong national monitoring, reporting, and verification system for greenhouse gases
(GHG).

The audit team chose two components of GCC that account for 61 percent of its funding in fiscal
year (FY) 2012. (Table 1 outlines the breakdown for each.)

Mexico Low Emissions Development (MLED) Program. This program, implemented through
a contract with Tetra Tech Inc., helps the Mexican Government (1) establish low emissions
development strategies and (2) strengthen the systems that monitor, report, and verify
emissions in all sectors of the economy. MLED also helps the government develop energy
policies, financing mechanisms, and institutional and technical capacity to enable the adoption
of clean energy technologies in the public and private sectors. The program ensures that efforts
carried out by other implementing partners for GCC are coordinated and integrated.

Mexico’s Reduced Emissions from Deforestation and Degradation (M-REDD) Program.
Implemented though a cooperative agreement with the Nature Conservancy, this helps Mexico
implement a sustainable Reducing Emissions from Deforestation and Forest Degradation
(REDD+)2 strategy, including an effective monitoring, reporting, and verification system for
emissions. In addition, the program helps Mexico develop REDD+-related policies, build
institutional and technical capacity, and create the financial structure necessary to support the
sustainable implementation of REDD+ activities.

                    Table 1. USAID/Mexico’s Environmental Programs (Audited)
                                       Total          Amounts       Amounts
                 Program              Amount          Obligated     Expended               Dates
                                    ($ millions)     ($ millions)  ($ millions)
                 MLED                    19.5*           9.3           2.2             9/1/11–9/1/16
                M-REDD                   29.1            9.5           1.2            8/29/11–8/28/16
       Source: USAID/Mexico. Dollar values are as of September 30, 2012.
       * The contract is for $12.1 million with an option to raise the total amount to $19.5 million and
       extend for 2 years.

1	
     “A clean economy is a segment of an economic system in which supply chains are transformed to meet
     demand for low-carbon energy technologies. It's based on a simple but controversial idea: that cutting
     global warming emissions from burning fossil fuels and shifting to clean energy can unleash economic
     growth and job creation.” (Maria Gallucci, “A Primer on the U.S. Clean Energy Economy: What It Is,
     Why It Matters,” InsideClimate News, February 28, 2012.)
2	
     According to the United Nations, “REDD is an effort to create a financial value for the carbon stored in
     forests, offering incentives for developing countries to reduce emissions from forested lands and invest
     in low-carbon paths to sustainable development. ‘REDD+’ goes beyond deforestation and forest
     degradation, and includes the role of conservation, sustainable management of forests and
     enhancement of forest carbon stocks.”


                                                                                                           1
The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit to
determine whether USAID/Mexico’s GCC Program is achieving its primary goals of helping
Mexico reduce emissions from deforestation and forest degradation, implementing a low
emissions development strategy, and establishing a strong national monitoring, reporting, and
verification system for greenhouse gases (GHG).

The audit found that by the end of the first year, 64 percent of M-REDD’s and 21 percent of
MLED’s activities were late (page 4). The main reasons were lack of start-up plans, problems
with hiring personnel, misunderstandings among some subpartners, and changes within the
Mexican Government after national elections.
The audit identified the following concerns related to program implementation.

	 Indicator and results reporting were not always accurate or complete (page 6). Data for
   some indicators were missing, and results reported at the program level did not always
   match the results included in the mission’s performance plan and report (PPR).

	 One program did not comply with human trafficking requirements (page 9). The counter-
   trafficking clause was left out of the MLED contract, and the program’s staff was not aware
   of the compliance requirement.

	 The mission did not require its programs to track earmarked funds nor were all needed
   financial controls implemented (page 10).

	 Program security plans were not complete (page 11). Safety and security protocols were not
   adequate for the high-risk locations where contract employees are scheduled to work.

Despite these problems and delays, USAID/Mexico’s environmental activities succeeded in
some areas. For example, MLED helped the Mexican Government develop a basis document
for a low emissions development strategy and is supporting efforts to implement it. M-REDD
provided technical and strategic support for Mexico’s General Law of Ecological Balance and
Environmental Protection, the General Sustainable Forestry Law, and the development of
REDD+ strategies at the national and state levels.

To help the program overcome the initial delays and achieve its intended objectives, RIG/San
Salvador recommends that USAID/Mexico:

1. 	 Require the Nature Conservancy to adjust its work plans and budgets to account for the
     delays in the first year (page 6).

2. 	Help the Nature Conservancy find a new local partner to take on the development of a
    financial structure for REDD+ investments and help manage subgrants with local partners
    while maintaining the cost-share level agreed to in the award (page 6).

3. 	 Require Tetra Tech Inc. to provide status updates of activities approved in the work plans
     (page 6).

4. 	Develop a plan to help the Nature Conservancy improve the monitoring and evaluation
    components in its program (page 6).




                                                                                             2
5. 	Execute a plan with Tetra Tech Inc. and the Nature Conservancy to define how each
    indicator is to be tracked (page 8).

6. 	 Consult with USAID/Washington’s Global Climate Change Office on how to calculate and
     report greenhouse gas emissions reductions and sequestrations for activities related to law,
     policy, agreement, or regulation (page 8).

7. 	 Verify the information reported in the performance management plan and performance plan
     and report, and revise accordingly (page 9).

8. 	 Conduct a data quality assessment (which includes verification of data) on its performance
     plan and report indicators (page 9).

9. 	 With Tetra Tech Inc. and the Nature Conservancy, implement uniform guidance on how to
     calculate and report training data in the Training Results and Information Network (page 9).

10. Amend Tetra Tech Inc.’s contract to include the Federal Acquisitions Regulation 52.222-50
    clause (page 9).

11. Advise 	Tetra Tech Inc. and the Nature Conservancy to implement appropriate
    methodologies for planning, allocating, tracking, and reporting earmarked funds (page 11).

12. Verify that Tetra Tech Inc. has corrected the internal control deficiencies identified in this
    audit report (page 11).

13. Advise Tetra Tech Inc. and the Nature Conservancy to implement security plans that
    adequately address the safety and security of their personnel working in regional locations
    (page 12).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Management comments will appear in Appendix ll, and our evaluation of them is on
page 13.




                                                                                                3
AUDIT FINDINGS
Environmental Programs Were Late
According to Automated Directives System (ADS) 202.3.6, “Monitoring the quality and
timeliness of outputs produced by implementing partners is a major task of contracting officer
representatives and development objective teams . . . Delays in completing outputs or problems
in output quality provide an early warning that results may not be achieved as planned.”

Additionally, per their respective agreements with USAID/Mexico, the implementers of the
MLED and M-REDD programs developed annual work plans for the period from October 2011
to September 2012. USAID considers these very important management tools because they
contain clear performance indicators, benchmarks against which the implementers report
quarterly, and a budget projection for the period. According to their first-year work plans
approved by USAID/Mexico, MLED and M-REDD were required to implement 77 and
105 activities, respectively, from October 2011 to September 2012.

However, both programs were late; as of October 2012, MLED had implemented only 61 of the
77 activities (79 percent), and M-REDD only 31 of 105 (30 percent). As a result, key activities,
such as setting up the grants component, supporting the creation of the financial structure for a
national REDD+ system, and supporting the development of a monitoring, reporting, and
verification system for GHG, had not started or were significantly behind schedule.

According to officials at the Nature Conservancy and Tetra Tech, some delays stemmed from
Mexico’s elections in July 2012. They said they could not work with government personnel from
the transition team until U.S. Embassy and USAID/Mexico officials had established official
contacts with the new leaders.

While delays from these types of external factors may be unavoidable, other delays occurred
because USAID/Mexico’s contracting officer representatives and development objective team
did not (1) closely monitor the implementing partners’ work to identify potential problems or
(2) provide timely assistance and coordination to make sure programs stayed on track.

Implementers Lacked Start-up Plan. Neither Tetra Tech nor the Nature Conservancy had a
start-up plan, and the mission provided limited guidance and assistance to help them begin their
programs. As a result, Tetra Tech had problems opening bank accounts, acquiring and
remodeling office space, and acquiring clearances, documentation, and accreditations from the
government.

Implementers Faced Hiring Delays. According to USAID/Mexico and its implementers, the
salary levels the Agency originally approved were too low to attract qualified candidates for
selected positions. Delays averaged about 45 days per position for Tetra Tech and 5 to
8 months for the Nature Conservancy. The Nature Conservancy still has not been able to fill its
policy adviser position after more than 1 year of implementation.

By the time USAID agreed to increase the salaries, delays had occurred and the most eligible
candidates had taken other jobs. This situation could have been avoided in the case of the
Nature Conservancy because the regulations governing its agreement did not have as stringent



                                                                                               4
salary requirements as those governing Tetra Tech’s contract3.

USAID Approved Documents Late. USAID took a very long time to approve some key
documents needed to get the programs started. For example, it took about 2 months for USAID
to approve the programs’ work and management plans, and approximately 9 months to approve
the MLED grants manual. MLED was to distribute $400,000 in grants during its first year, but
could not distribute any because the manual had not been approved.

Organization Misunderstood Its Role. To implement M-REDD, the Nature Conservancy
proposed forming a consortium with three other organizations. USAID awarded the program to
the consortium based on the “(1) technical expertise of the partners, (2) proposed cost share
from each member, and (3) potential synergies and efficiencies” that the consortium offered.
However, the Nature Conservancy entered into the agreement as the prime partner with the
other members of the consortium as subpartners, which caused a misunderstanding of roles
because the other partners expected to have equal status within the consortium. This led to
major disagreements, and one partner pulled out, putting at risk the $2 million in cost sharing
that it had agreed to contribute. This is causing even more delays as the Nature Conservancy
looks for a replacement organization to manage its subgrants and local partners.

Excessive Reporting Created Burdens. As part of the MLED agreement, Tetra Tech provides
weekly, monthly, quarterly, and annual reporting, and it responds to ad hoc requests for
information for all GCC programs. Tetra Tech also coordinates all GCC events, such as
partners’ meetings and workshops.

Although Tetra Tech agreed to the extra reporting and coordination requirements, they have
become a significant burden. The contracting officer’s representative realized this and
eliminated the monthly reporting requirement from the agreement.

Tracking Activity Implementation Status Was Difficult. Tetra Tech was not reporting on the
progress of its program by activity, making it hard for the contracting officer’s representative4 to
monitor the progress of the activities specifically outlined in the approved work plans. Therefore,
USAID was not aware of delays and could not address their causes. Additionally, the Nature
Conservancy’s chief of party expressed concern that a large program like M-REDD ($29 million)
did not have a monitoring and evaluation specialist on staff.

These planning and coordination delays contributed to the mission setting aside more funds
than they were allowed to. According to ADS 602.3.2, “Maximum Length of Forward Funding,”
program managers, with some exceptions, should not make obligations “for more than
12 months beyond the end of the fiscal year in which the obligation takes place.” Based on the
mission’s assessment at the time of the audit, both programs are funded beyond that length of
time: MLED for 15 months, and M-REDD for 26 months.

The delays could impede progress toward achieving the programs’ main goals. While Tetra
Tech has adjusted its second year work plan and budget, the Nature Conservancy has not.
Unless it does, key activities, such as supporting development of the financial system for

3
    The agreement officer had rejected the requests for the Nature Conservancy’s higher salary levels
    based on USAID Acquisition Regulation 701.301(b)), even though this regulation applied to contracts
    and not cooperative agreements.
4
    Numerous people had this job during the program’s first year.


                                                                                                     5
REDD+ and supporting development of the national monitoring, reporting, and verification
system for GHG, will not be completed. To address these problems, we make the following
recommendations.

       Recommendation 1. We recommend that USAID/Mexico require the Nature
       Conservancy to adjust and resubmit its work plan and budget to account for the delays
       experienced in the first year.

       Recommendation 2. We recommend that USAID/Mexico work with the Nature
       Conservancy to identify a new local partner to take on the financial system for REDD+
       and help manage subgrants with local partners while maintaining the cost share level
       agreed to in the award.

       Recommendation 3. We recommend that USAID/Mexico work with Tetra Tech Inc. to
       provide written status updates on activities approved in the work plans.

       Recommendation 4. We recommend that USAID/Mexico develop a plan to help the
       Nature Conservancy improve the monitoring and evaluation component of the M-REDD
       Program.

Indicator and Results Reporting Were
Not Always Accurate or Complete
Per ADS 203.3.3, a performance management plan (PMP) “is a tool to plan and manage the
process of monitoring, evaluating, and analyzing progress toward achieving results”; the PMP
should “inform decision-making, resource allocation, learning, and adapting projects and
programs.” USAID missions are required to have PMPs for any projects or activities they fund.
Performance indicators5 are tools in a PMP that allow the progress of a USAID project to be
measured.

ADS 203.3.4.3 states that baseline data for each of the performance indicators are determined
before the project starts. Targets are then set for each indicator, and results are measured
through the PMP. The data from the PMP are not only used to measure progress and inform
decision-making, but they also are reported to Congress through the annual PPR to justify
foreign assistance programming and resource requests.

Additionally, to certify the quality of the data being reported, ADS 203.3.11.3 requires missions
to conduct data quality assessment (DQAs) “to ensure that decision makers are fully aware of
data strengths and weaknesses and the extent to which data can be trusted when making
management decisions and reporting.” Per ADS 200.2, development objective teams make sure
that all accountability requirements related to use of foreign assistance resources assigned to
them are identified, met, and documented adequately.



5	
     ADS 200.6 defines a performance indicator as “a particular characteristic or dimension used to
     measure intended changes . . . Performance indicators are used to observe progress and to measure
     actual results compared to expected results. Performance indicators help answer how or if a USAID
     mission . . . is progressing towards its objective(s), rather than why such progress is or is not being
     made.”



                                                                                                          6
 Some of USAID/Mexico’s reporting on performance indicators and training results were not
 accurate or complete.

 Reported Progress for Indicators Was Not Accurate. On a quarterly basis, the MLED
 program reported on Number of laws, policies, agreements, or regulations addressing climate
 change proposed, adopted, or implemented as a result of USG (U.S. Government) assistance.
 However, Tetra Tech reported results only when a law or regulation has gone through all
 three stages, thereby underreporting the actual results. Likewise, for Number of climate
 mitigation and/or adaptation reports, tools, technologies, and methodologies developed,
 improved, tested, presented, and/or adopted as a result of USG assistance, Tetra Tech reported
 results when all three stages were finished rather than after each one.

 For a third indicator, Number of institutions with improved capacity to address climate change as
 a result of USG assistance, Tetra Tech considered only government ministries as “institutions”
 and did not count the improved capacity of other organizations. For example, even though
 18 organizations attended a workshop on low emissions development, Tetra Tech counted only
 1—a government ministry—toward the indicator results. Undercounting also occurred to a
 lesser extent with M-REDD.

 Implementers reported inaccurate results because they did not understand clearly how results
 were to be measured and did not receive any guidance from USAID/Mexico.

 Results Reported in PMP and PPR Differed. The results reported by the implementing
 partners in the PMPs did not always agree with results that the mission reported in the PPRs.
 The differences in some cases were large, as noted in Table 2.

                     Table 2. Differences Between Plan and Report (Audited)
                                                                                              Difference
                                                  Year 1 Results in      Year 1 Results in
  Program                 Indicator                                                          Between PMP
                                                        PMP                    PPR
                                                                                             and PPR (%)
 MLED         Number of laws, policies,                      2                  2                  0
 M-REDD       agreements, or regulations
              addressing climate change
              proposed, adopted, or                        8/0/0               6/0/0             75
              implemented as a result of
              USG assistance
 MLED         Number of institutions with                    6                  3                50
 M-REDD       improved capacity to address
              climate change issues as a                    26                  71               273
              result of USG assistance
 MLED         Number of climate change                       8                  4                50
 M-REDD       mitigation and/or adaptation
              reports, tools, technologies,
              and methodologies
                                                           7/0/0               7/0/0              0
              developed, improved, tested,
              and/or adopted as a result of
              USG assistance
 M-REDD*      Number of people receiving
              training in climate change                   444                1,537              346
              supported by USG assistance
Source: USAID/Mexico
* MLED plans to start reporting for this indicator in the second year.



                                                                                                       7
Auditors noted other problems and discrepancies as well.

Partners Did Not Know How to Calculate GHG Reductions Stemming from Policy-level
Interventions. Both implementing partners are required to report on the performance indicator
Quantity of GHG emissions, measured in metric tons of CO2e, reduced or sequestered to track
any results that could be attributed to policy changes.6 However, through the first year, neither
partner has reported any results because they did not have a formula for calculating that
quantity.

Reporting on Training Activities Was Not Accurate. ADS 253.3.4.5.b requires reporting
training activities in the Training Results and Information Network (TraiNet). The directive
specifies that any in-country training provided by the program or its subpartners should be
reported if it lasts more than 16 hours (or if it is considered critical). ADS also describes the
types of data that should be recorded, including the number of participants recorded by gender.

However, the information recorded in TraiNet was not always accurate. For example, Tetra
Tech recorded 34 people trained at one event, but the sign-in sheet showed that 12 of them
worked for USAID and Tetra Tech. According to ADS 253.3.2.1, USAID and implementer
employees are considered observers and should not to be counted as participants in any
training. Additionally, the Nature Conservancy reported in TraiNet that 266 people were trained
during FY 12, but reported 444 people in the PMP. Furthermore, the implementers did not
properly enter the total number of participants for training sessions that took place over several
days.

These problems occurred because USAID/Mexico’s development objective team did not verify
that reported results were accurate and reliable. The team did not confirm that effective DQAs
for each indicator were conducted. Officials at the Nature Conservancy and Tetra Tech said
they did not receive proper training on TraiNet, and the mission official in charge of the system
agreed that additional training was needed.

Mission officials said they had other priorities and an increased workload, which gave them less
time to focus on data quality and TraiNet. While the mission conducted DQAs for all of the
indicators reported in the FY 2012 PPR by both programs, they were done very early in the
process when little data were available to evaluate.

The next DQA is scheduled to be done in 3 years when the programs have only 1 year left.
Without high-quality DQAs, USAID/Mexico runs the risk of receiving inaccurate, incomplete data
about a program’s status and results. Without accurate data, the mission may misstate results
to Congress. It also may lack the information needed to assess the effectiveness of the
programs and make informed decisions about current and future programming. To correct these
problems, we make the following recommendations.

      Recommendation 5. We recommend that USAID/Mexico, Tetra Tech Inc., and the
      Nature Conservancy implement a plan to define how each indicator is to be tracked.

      Recommendation 6. We recommend that USAID/Mexico consult with
      USAID/Washington’s Global Climate Change Office on how to calculate and report

6	
     According to the Environmental Protection Agency, carbon dioxide equivalent (CO2e) is a metric
     measure used to compare the effect GHGs have on climate change.


                                                                                                 8
       greenhouse gas emissions reductions and sequestrations for activities related to law,
       policy, agreement, or regulation.

       Recommendation 7. We recommend that USAID/Mexico verify the information reported
       in the performance management plan and performance plan and report, and revise the
       reports accordingly.

       Recommendation 8. We recommend that USAID/Mexico conduct a data quality
       assessment (which includes verification of data) on its performance plan and report
       indicators.

       Recommendation 9. We recommend that USAID/Mexico, Tetra Tech Inc., and the
       Nature Conservancy implement uniform guidance on how to calculate and report data in
       the Training Results and Information Network.

Programs Did Not Comply With
Human Trafficking Requirements
According to the State Department’s June 2012 Trafficking in Persons Report, about 27 million
men, women, and children worldwide are victims of human trafficking.7 To help reduce
trafficking, the Federal Acquisitions Regulation (FAR) requires that Clause 52.222-50,
“Combating Trafficking in Persons,” be included in all solicitations and contracts.8

As previously noted, development objective teams should make sure that all accountability
requirements related to use of foreign assistance resources assigned to them are identified,
met, and adequately documented. However, despite that requirement, Tetra Tech had not
notified its staff of the FAR requirement. According to USAID and Tetra Tech, this occurred
because the agreement with Tetra Tech did not include the clause requiring compliance with
antitrafficking activities.

The State Department has determined that Mexico is a Tier 2 Country with regard to human
trafficking.9 However, without adequate awareness, program officials are at risk of coming into
contact with victims of trafficking without knowing how to recognize or address these situations.

To correct these problems, we make the following recommendation.



7	
     According to the Trafficking in Persons and Contractor/Recipient Compliance Agency-Wide Standard
     Operating Procedures, trafficking in persons is an “international crime involving the acquisition of
     human beings with force, fraud, or coercion for the purpose of exploiting individuals for profit through
     forced labor or prostitution.”
8	
     According to FAR 52.222-50, there is a zero-tolerance policy regarding implementing partners and their
     employees that engage in or support severe forms of human trafficking. They are required to establish
     policies and procedures for making sure their employees do not engage in or support trafficking,
     procure commercial sex acts, or use forced labor in the performance of a federal contract.

9	
     A Tier 2 country is one whose government does not fully comply with the minimum standards for the
     Trafficking Victims Protection Act of 2000 (Public Law 106-386) but is making significant efforts to bring
     itself into compliance with those standards.


                                                                                                             9
   Recommendation 10. We recommend that USAID/Mexico amend the Tetra Tech Inc.
   contract to include Clause 52.222-50 of the Federal Acquisitions Regulation.

Programs Did Not Track Earmarked
Funds or Implement All Financial
Controls
ADS 634.3.2 states that funds must be obligated and expended solely for the purposes for
which they were appropriated, except as otherwise provided by law. USAID provided earmarked
funds to Tetra Tech and the Nature Conservancy to use only for intended environmental
purposes. Tetra Tech received Clean Energy and Sustainable Landscapes earmarked funds.
The Nature Conservancy received Sustainable Landscapes and Biodiversity earmarked funds.
According to their agreements with USAID, the implementing partners are required to consider
the best use of earmarked funds when developing annual work plans and then track
expenditures by earmark category to demonstrate that the expenditures respect congressional
restrictions on the funding.

However, USAID/Mexico did not require its implementing partners to track these funds.
Therefore, Tetra Tech and the Nature Conservancy did not consider the best use of earmarked
funds when developing their annual work plans as required by their agreements. The Nature
Conservancy did not have a system in place to track funds by earmark. While Tetra Tech did
have a system, it was being done after the activities were already completed.

This problem occurred because USAID/Mexico did not provide adequate guidance or training to
its implementing partners on how to track these funds. Other priorities and an increased
workload contributed to the mission’s lack of attention to the earmarked requirements.
According to Tetra Tech, its accounting system had not been set up to track earmarks, and it
had not received guidance on how to track and allocate earmark funds. Officials at the Nature
Conservancy said they understood that all the program’s funds related to one type of earmark,
so they did not see a need to track the two separately.

Without adequate tracking, the programs’ funds may not be used as appropriated, and that
could result in inaccurate allocations and misuse of those earmarked funds.

Furthermore, the A-102 Common Rule and the Office of Management and Budget (OMB)
Circular A-110 (2 Code of Federal Regulations, Part 215) requires organizations receiving
federal awards to establish and maintain internal controls designed to reasonably ensure
compliance with federal laws, regulations, and program compliance requirements. Protecting
property and assets from loss from unauthorized use or disposition are among the key
objectives of internal controls, per OMB Circular A-133.

During the audit, the team noted the following additional control weaknesses within MLED.

• 	 Tetra Tech signed checks without tiered authority levels to prevent the risk of
    misappropriation of assets.

• 	 Tetra Tech did not segregate duties when preparing bank reconciliations and processing
    payments.




                                                                                            10
• 	 Computer system backups were not kept at an offsite location to allow recovery in case of
    disaster.

• 	 Tetra Tech’s Mexico operations manual was incomplete; the staff there tried adopting the
    one used in the U.S. headquarters instead of writing one tailored to its Mexico office.

According to Tetra Tech officials, these problems happened because in the past year the staff
focused more on setting up an office than they did on internal controls.

Weak internal controls may result in misappropriation of assets or loss of data. To correct these
problems, we make the following recommendations.

   Recommendation 11. We recommend that USAID/Mexico advise Tetra Tech Inc. and
   the Nature Conservancy to implement appropriate methodologies for planning,
   allocating, tracking, and reporting earmarked funds.

   Recommendation 12. We recommend that USAID/Mexico verify that Tetra Tech Inc.
   corrects the internal control deficiencies identified in this audit report.

Program Security Plans Were Not
Complete
According to the operational security supplement to ADS 302 and 303, “When implementing any
USAID award, the implementing partner bears the ultimate responsibility for ensuring adequate
steps are taken to safeguard the security and safety of its personnel and any USAID funded
equipment/property/vehicles.” Furthermore, the supplement states that to achieve an adequate
level of security, USAID implementing partners must see security as a top priority. It must be an
integral component of program design and program management.

While the MLED program has a security plan, it is not adequate for the high-risk areas in which
the staff members are scheduled to work next year. The plan was developed to provide
guidance for the first-year activities carried out in and around Mexico City. But it does not
address the risks of working in more dangerous places, such as Ciudad Juarez, Chihuahua,
Coahuila, Baja California, and Morelos, where MLED is slated to be implemented next year. The
Regional Security Office at the American Embassy has identified these places as dangerous
areas where precautions and security measures should be taken, and it has warned employees
to avoid travel to Ciudad Juarez and Chihuahua.

The M-REDD program does not have a security plan and is scheduled also to be working in
areas identified as high-risk next year, including Chihuahua and Michoacan.

This occurred because the mission did not monitor the partners to make sure they had effective
security plans in place before work began. Furthermore, Tetra Tech intended to work only
around the capital when it prepared its security plan during the first year of implementation.
Subsequently the Mexican Government asked the program to work in high-risk areas. Tetra
Tech did not change the plan to include those areas because program officials said they did not
know this was necessary to address security risks.




                                                                                              11
A security plan considers the volatile environments in which contractors work and should
minimize risks to them as well as to program beneficiaries. To correct these problems, we make
the following recommendation.

   Recommendation 13. We recommend that USAID/Mexico advise Tetra Tech Inc. and
   the Nature Conservancy to implement security plans that adequately address the safety
   and security of their personnel working in regional locations.




                                                                                           12
EVALUATION OF MANAGEMENT
COMMENTS
In response to our draft report, USAID/Mexico concurred with each recommendation and either
took or plans to take the actions, as described below.

Recommendation 1. The mission met with Nature Conservancy officials to discuss the delays
during the first year. Appropriate updates and adjustments to their work plan and budget were
made, and the mission approved them on May 24, 2013. Based on these actions, we
acknowledge that final action has been taken on this recommendation.

Recommendation 2. The mission met with Nature Conservancy officials to discuss the issues
identified in the audit. They implemented a mechanism to take on the development of the
program’s financial system. They also hired a new local partner, Espacios Naturales para el
Desarrollo Sustentable, to manage the subgrants program and agreed to assume full
responsibility for the cost-share level decided on in the award. Based on these actions, we
acknowledge that final action has been taken on this recommendation.

Recommendation 3. The mission modified the contract with Tetra Tech Inc. to require annual
reporting by activity, and the contractor has adopted a new reporting format to meet this
requirement. Based on these actions, we acknowledge that final action has been taken on this
recommendation.

Recommendation 4. The mission has taken steps with the Nature Conservancy to improve
monitoring and evaluation by integrating an adaptive management plan that incorporates
tracking progress toward achieving program goals. The Nature Conservancy intends to hire
additional staff to conduct the program’s monitoring and evaluation; the additional staff is
expected to be in place by August 30, 2013. Based on these planned actions, we acknowledge
that a management decision has been reached on this recommendation.

Recommendation 5. The mission has worked with Tetra Tech and the Nature Conservancy,
and both programs have adjusted their tracking systems to standardize the way in which
outcomes are measured against indicators. Based on these actions, we acknowledge that final
action has been taken on this recommendation.

Recommendation 6. The mission consulted with USAID/Washington by sending a letter on
June 4, 2013, and received guidance from the Bureau of Economic Growth, Education and
Environment’s Global Climate Change Office on how to calculate GHG emissions for policy
activities. Based on these actions, we acknowledge that final action has been taken on this
recommendation.

Recommendation 7. The mission amended and resubmitted the 2012 PPR to address issues
identified in the audit. Mission officials said they will also amend their implementers’ award
documents to make sure accurate, consistent information would be reported in future PMPs and
PPRs. They estimate closing this recommendation by July 31, 2013. Based on the actions
planned and time frames established, a management decision has been reached.




                                                                                           13
Recommendation 8. The mission will conduct data quality assessments for indicators reported
to Washington under both programs by January 30, 2014. Based on the actions planned and
time frames established, a management decision has been reached.

Recommendation 9. The mission had Nature Conservancy employees complete TraiNet
training on April 17, 2013. On May 3, 2013, the mission met with staff from Tetra Tech Inc. to
provide additional training on TraiNet use. These sessions provided uniform guidance to Tetra
Tech Inc. and the Nature Conservancy on how to calculate and report data into the system.
Mission officials said they would confirm that guidance is implemented correctly by
November 30, 2013. Based on the actions planned and time frames established, a management
decision has been reached.

Recommendation 10. The mission amended the contract with Tetra Tech on April 29, 2013, to
include Clause 52.222-50 of the FAR. Based on these actions, we acknowledge that final
action has been taken on this recommendation.

Recommendation 11. The mission has taken steps to improve Tetra Tech. and Nature
Conservancy procedures for tracking and reporting on earmarked funds. The mission also
asked both implementers to provide a description of their procedures to manage earmarked
funds properly, and anticipates approval and implementation of them by August 31, 2013.
Based on the actions planned and time frames established, a management decision has been
reached.

Recommendation 12. The mission worked with Tetra Tech to address the control deficiencies
identified in the audit, and officials said they would conduct a financial review to verify the
correction of each identified internal control deficiency by November 30, 2013. Based on the
actions planned and time frames established, a management decision has been reached.

Recommendation 13. The mission has taken steps to address safety and security issues with
Tetra Tech and the Nature Conservancy. Additionally, on June 4, 2013, the mission sent formal
letters advising both to implement security plans that address the safety and security of their
personnel adequately. Based on these actions, we acknowledge that final action has been
taken on this recommendation.




                                                                                            14
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. They require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The objective of the audit was to determine whether USAID/Mexico’s GCC was achieving its
primary goals of helping Mexico reduce emissions from deforestation and forest degradation,
implementing a low emissions development strategy, and establishing a strong national
monitoring, reporting, and verification system for GHG. To make this determination, the team
reviewed two environment programs that accounted for 61 percent of GCC. The total amount
obligated for these two as of September 30, 2012, was $18,879,586, and the amount expended
was $3,401,790. The expended amount represents the amount tested during the audit.

We conducted audit fieldwork from January 21 to February 8, 2013, at USAID/Mexico in Mexico
City, as well as in Chetumal and Felipe Carrillo Puerto in the state of Quintana Roo. We visited
and interviewed employees from the main and regional offices of Tetra Tech and the Nature
Conservancy, including their subpartners Fondo Mexicano Para La Conservacion de La
Naturaleza, the Woods Hole Research Center, Rainforest Alliance, and the World Wildlife
Federation. We also met with various Mexican officials at the state and federal levels.

As part of the audit, we assessed the significant internal controls USAID/Mexico used to monitor
activities and progress. The assessment included controls to determine whether the mission
conducted and documented site visits to evaluate progress and monitor quality, reviewed and
approved required assessments or evaluations, reviewed progress reports and work plans from
its implementers, and reviewed and tested activities and indicators its implementers and
partners used. We reviewed the mission’s annual certification required by the Federal
Managers’ Financial Integrity Act of 1982 to verify whether the assessment cited any relevant
weaknesses. We also reviewed prior environmental audit reports for Latin America as a guide in
planning the audit.

Methodology
To answer the audit objective, we interviewed officials from USAID/Mexico, Tetra Tech, Nature
Conservancy, subpartners, the Mexican Government, and some regional governments. For
implementing partners, we interviewed the chiefs and deputy chiefs of party, natural resources
advisers, grant specialists, coordinators, and several other employees. We also reviewed and
analyzed relevant documents and data at the mission and implementers’ offices. Documents
analyzed included portions of ADS, annual work plans, quarterly reports, PMPs, selected
agreements between USAID/Mexico and its implementers, financial reports, DQAs and a variety
of environment-related material. Furthermore, we compared the results implementers reported
in their PMPs with those the mission reported in its PPR. We also verified actual activity results
reported in annual reports and compared them with annual work plans.




                                                                                               15
                                                                                     Appendix I


We performed site visits based on feedback from the mission and implementers and on time
and distance constraints. We audited key portions of the two major programs. Since the testing
and the site visit selection were based on a judgmental sample instead of a statistical one, the
results and conclusions related to this analysis are limited to the items and areas tested, and
they cannot be projected to the entire audit universe.




                                                                                             16
                                                                                          Appendix II



MANAGEMENT COMMENTS 


                                                                                        June 07, 2013

ACTION MEMORANDUM

TO: 	                  Jon Chasson, Regional Inspector General/San Salvador

FROM: 	                Thomas R. Delaney, Mission Director /s/

SUBJECT: 	             Mission Response to Draft Audit Report of USAID/Mexico’s Environment
                       Program (Audit Report No. 1-523-13-00X-P)

Thank you for the opportunity to respond to the draft report of the audit of USAID/Mexico’s
Environmental Program, per your memorandum dated May 28, 2013.
Below we have listed each of the recommendations contained in the draft audit report. Following
each recommendation are USAID/Mexico’s management comments and decisions. Additional
comments on the body of the report are included in the last section of this memorandum.


Management Response to Recommendations
Recommendation 1. “We recommend that USAID/Mexico require The Nature Conservancy to
adjust and resubmit their work plan and budget to account for the delays experienced in the first
year.”
USAID/Mexico concurs with this recommendation. The Mission has met with The Nature
Conservancy to discuss the delays during the first year. In response, The Nature Conservancy
updated and adjusted their work plan and budget, and these were approved by the USAID/Mexico
Agreement Officer’s Representative on May 24, 2013 (see Attachment 1). The adjusted budget and
work plan account for the delays experienced during the first year. The Mission, therefore, requests
that this recommendation be closed upon issuance of the audit report.

Recommendation 2. “We recommend that USAID/Mexico work with The Nature Conservancy to
identify a new local partner to take on the financial system for REDD+ and help manage sub-
grants with local partners while maintaining the cost share level agreed to in the award.”
USAID/Mexico concurs with this recommendation. The Mission has met with The Nature
Conservancy (TNC) to discuss these issues and, in response, TNC has implemented a mechanism to
take on the financial system of the project with approval from the Agreement Officer; TNC has hired
a new local partner, Espacios Naturales para el Desarrollo Sustentable (ENDESU), to manage the
sub-grants program, and has agreed to assume full responsibility for the cost share level agreed to in
the award (see Attachment 2). The Mission, therefore, requests that this recommendation be closed
upon issuance of the audit report.




                                                                                                   17
                                                                                        Appendix II


Recommendation 3. “We recommend that USAID/Mexico work with Tetra Tech Inc. to provide
written status updates on activities approved in the work plans.”
USAID/Mexico concurs with this recommendation. While the Mission actively tracks outcomes for
the Tetra Tech Inc. (MLED) project, the progress reporting format that had been used until recently
did not track progress at the activity level. A new tracking format has been adopted by the MLED
Project (see Attachment 3), and the Mission modified the contract to require annual reporting by
activity (see Attachment 4). The Mission, therefore, requests that this recommendation be closed
upon issuance of the audit report.

Recommendation 4. “We recommend that USAID/Mexico develop a plan to assist The Nature
Conservancy with improvements to the monitoring and evaluation component of the M-REDD
program.”
USAID/Mexico concurs with this recommendation. As part of a telephone call made on March 6,
2013 by the Agreement Officer with TNC’s senior management to discuss this and other
performance and implementation issues, the Agreement Officer asked TNC to improve compliance
with the monitoring and evaluation component of the cooperative agreement. In their detailed
response on the 8th of April (see Attachment 2), TNC proposed an Adaptive Management Plan
through which the TNC would better monitor and evaluate progress toward achieving program goals.
In addition, during a follow-up meeting held on April 22, 2013, TNC agreed with USAID/Mexico’s
recommendation to hire additional staff to be primarily dedicated to conduct the program’s
monitoring and evaluation tasks (see Attachment 1). The above actions address the intent of the
recommendation. The Mission, therefore, requests that this recommendation be closed upon issuance
of the audit report.

Recommendation 5. “We recommend that USAID/Mexico, Tetra Tech Inc., and The Nature
Conservancy implement a plan to define how each indicator is being tracked.”
USAID/Mexico concurs with this recommendation. USAID/Mexico does track the indicators of
each program through their quarterly and annual reports, which are then consolidated into an
Integrated Annual Global Climate Change Report. However, to improve the consistency of future
reporting, USAID/Mexico has addressed these concerns with Tetra Tech Inc. and The Nature
Conservancy, and both programs have adjusted their tracking systems to standardize the way in
which outcomes are measured against indicators. Please see Attachment 3 and, as an example, the
adjustments to the Performance Management Plan (PMP) that The Nature Conservancy produced as
part of their first Annual Report (see Attachment 5). The Mission, therefore, requests that this
recommendation be closed upon issuance of the audit report.

Recommendation 6. “We recommend that USAID/Mexico consult with USAID/Washington’s
Global Climate Change Office on how to calculate and report greenhouse gas emissions
reductions and sequestrations for activities related to law, policy, agreement or regulation.”
USAID/Mexico concurs with this recommendation. A letter requesting guidance from the E3 Global
Climate Change office was sent on June 4, 2013 (see Attachment 6). Having complied with the
recommendation to “consult with USAID/Washington,” the Mission, therefore, requests that this
recommendation be closed upon issuance of the audit report.

Recommendation 7. “We recommend that USAID/Mexico verify the information reported in the
Performance Management Plan and Performance Plan and Report (PPR), and revise the reports
accordingly.”
USAID/Mexico concurs with this recommendation. On May 16, 2013, the Mission amended and
resubmitted the 2012 Performance Plan and Report (PPR) to update the preliminary indicator


                                                                                                 18
                                                                                         Appendix II


information that had been included in the first submission of the PPR in December 2012 (see
Attachment 7). In addition, in response to the inconsistencies found during the audit, the Mission is
in the process of amending the MREDD cooperative agreement to ensure that accurate and consistent
information will be reported in future PMPs and PPRs, as follows: annual reports from Tetra Tech
will now be due October 31st; The Nature Conservancy will produce a Fourth Quarterly Report due
on October 31st in addition to their Annual Report. The Integrated Global Climate Change Activities
Report will be due November 30th to ensure verified year-end data is provided to inform the PMP
and PPR process. We estimate closure of this recommendation by July 31, 2013, once the MREDD
amendment is completed.

Recommendation 8. “We recommend that USAID/Mexico conduct a data quality assessment
(which includes verification of data) on its Performance Plan and Report indicators.”
USAID/Mexico concurs with this recommendation. USAID/Mexico will conduct a data quality
assessment (DQA) after the end of the second year of implementation. The Mission notes that a
DQA was conducted in the first months of project implementation in compliance with
USAID/Washington Performance Plan and Report guidance which requires that “for new indicators,
a DQA must be completed within six months before reporting results to Washington. Afterward, the
DQA must be updated every three years for active Standard or Custom indicators before the data is
reported to Washington.” Since the original DQAs were completed in July 2012, Washington
guidance does not require that new DQAs be conducted until July 2015. However, the Mission will
also conduct new DQAs for indicators reported to Washington under both programs by January 30,
2014, at which time we anticipate requesting closure of this recommendation.

Recommendation 9. “We recommend that USAID/Mexico, Tetra Tech Inc. and The Nature
Conservancy implement uniform guidance on how to calculate and report data in the Training
Results and Information Network.”
USAID/Mexico concurs with this recommendation. Staff from USAID/Mexico and The Nature
Conservancy completed TRAINet training on April 17, 2013 (see Attachment 8) in the United States.
In addition, on May 3, 2013, USAID/Mexico staff met with Tetra Tech Inc. to provide additional
training on TRAINet use (See Attachment 9). These training sessions provided uniform guidance to
Tetra Tech Inc. and The Nature Conservancy on how to calculate and report data in TRAINet. The
Mission will confirm that guidance is implemented correctly by November 30, 2013, at which time
we anticipate requesting closure of this recommendation.

Recommendation 10. “We recommend that USAID/Mexico amend the Tetra Tech Inc. contract to
include the Federal Acquisitions Regulation 52.222-50 clause.”
USAID/Mexico concurs with this recommendation. On April 29, 2013, the contract with Tetra Tech
Inc. was amended to include the FAR 52.222-50 clause (see Attachment 4). The Mission, therefore,
requests that this recommendation be closed upon issuance of the audit report.

Recommendation 11. “We recommend that USAID/Mexico, Tetra Tech Inc., and The Nature
Conservancy implement appropriate methodologies for planning, allocating, tracking and
reporting earmarked funds.”
USAID/Mexico concurs with this recommendation for Tetra Tech and The Nature Conservancy.
The Mission has existing systems in place and uses appropriate methodologies for planning,
allocating, tracking and reporting earmarked funds. On April 30, 2013, USAID/Mexico sent a
formal letter to Tetra Tech Inc. (see Attachment 10) citing the type of funds obligated to the MLED
contract and the responsibility to plan, allocate, track and report on these earmarked funds
appropriately. Tetra Tech Inc. was asked to respond to the Mission with its plan for complying with


                                                                                                  19
                                                                                        Appendix II


this requirement. These same points were addressed in a meeting with The Nature Conservancy on
April 22, 2013. USAID/Mexico has requested that both Tetra Tech and The Nature Conservancy
provide a description of their procedures to manage earmarked funds properly. We anticipate
requesting closure of this recommendation by August 31, 2013, once the methodologies are approved
and implemented by Tetra Tech Inc. and The Nature Conservancy.

Recommendation 12. “We recommend that USAID/Mexico verify that Tetra Tech Inc. corrects the
internal control deficiencies identified in the audit report.”
USAID/Mexico concurs with this recommendation. USAID/Mexico has provided guidance to Tetra
Tech Inc. to address the control deficiencies identified in the audit, and Tetra Tech Inc. responded
with a description of actions taken to address these deficiencies in a letter to the COR (see
Attachment 3). The USAID/Mexico Financial Management Office will conduct a financial review to
verify the correction of each identified internal control deficiency by November 30, 2013, at which
time we anticipate requesting closure of this recommendation.

Recommendation 13. “We recommend that USAID/Mexico advise Tetra Tech Inc. and The Nature
Conservancy to implement security plans that adequately address the safety and security of their
personnel working in regional locations.”
USAID/Mexico concurs with this recommendation. The safety and security of USAID/Mexico’s
implementing partners is a top priority of the Mission. From the beginning of GCC program, in
order to help Tetra Tech Inc. and The Nature Conservancy ensure the safety of their employees,
USAID/Mexico provided both implementers with USG-issued travel warnings, put the implementing
partners in touch with the Regional Security Office (RSO) to discuss specific security concerns, and
responded to requests for location-specific information regarding the security conditions within
Mexico. On June 4, 2013 USAID/Mexico sent formal letters advising Tetra Tech Inc. and The
Nature Conservancy to implement security plans that adequately address the safety and security of
their personnel, consistent with their responsibilities under their contract or agreement (see
Attachment 11). The Mission, therefore, requests that this recommendation be closed upon issuance
of the audit report.




                                                                                                 20
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
